<html>
<title> - SHIFTING SANDS: POLITICAL TRANSITIONS IN THE MIDDLE EAST, PART 1</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
    SHIFTING SANDS: POLITICAL TRANSITIONS IN THE MIDDLE EAST, PART 1

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 13, 2011

                               __________

                           Serial No. 112-27

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
65-796                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e483948ba4879197908c818894ca878b89ca">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Eliot Cohen, Ph.D., Robert E. Osgood Professor of Strategic 
  Studies, The Paul H. Nitze School of Advanced International 
  Studies (SAIS), The Johns Hopkins University...................     6
Mr. J. Scott Carpenter, Keston Family Fellow, Washington 
  Institute for Near East Policy.................................    12
Mr. Michael Makovsky, Ph.D., Foreign Policy Director, Bipartisan 
  Policy Center..................................................    20

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Eliot Cohen, Ph.D.: Prepared statement.......................     9
Mr. J. Scott Carpenter: Prepared statement.......................    15
Mr. Michael Makovsky, Ph.D.: Prepared statement..................    23

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59


    SHIFTING SANDS: POLITICAL TRANSITIONS IN THE MIDDLE EAST, PART 1

                              ----------                              


                       WEDNESDAY, APRIL 13, 2011

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The committee will come to order. I want to 
thank everyone for being here. We are going to have votes here 
very shortly, so we are going to try to get at least our 
opening statements in here.
    I want to welcome all my colleagues to the third hearing of 
the Subcommittee on Middle East and South Asia. This hearing 
was called to assess the current trajectory of the political 
transitions in the Middle East, and to take stock of where the 
U.S. stands today.
    Nearly 4 months ago, Mohammed Bouazizi, a street vendor in 
Ben Arous, Tunisia, touched off a tidal wave of unrest that 
continues to share the Arab world to its very foundation. His 
self-immolation became a symbol around which Tunisians united 
to overthrow former President Ben Ali, whose oppressive regime 
had at that point been ruling for over 20 years.
    Arab citizens throughout the Middle East looked on, and 
inspired by the revolution in Tunisia took to the streets in 
unprecedented numbers. For us sitting here today, it is perhaps 
the most striking that, unlike in the past, the citizens of the 
region are not protesting against the U.S. or against Israel, 
but against the failings of their own governments.
    Hidden under a thin veneer of stability, Arab autocracies 
for decades have allowed the social and political foundations 
of their countries to fester, and in many cases rot. It was 
only a matter of time until the citizens of the region stood up 
and together said, ``Enough.''
    Although each country has its own distinctive history and 
its own set of unique circumstances, the current unrest is, at 
its core, about rewriting the social contract throughout the 
Arab world.
    The citizens in the streets stand collectively and demand 
the same fundamental human rights that are the birthright of 
every individual on earth. They remind us that the rights to 
life, liberty, and the pursuit of happiness do not stop at the 
water's edge.
    Four months into this transition, it is appropriate to 
pause and assess where the region is heading, and to examine 
the effectiveness of the administration's policy to date. The 
regional shifts happening throughout the Middle East place the 
United States and our allies at a precipice in history.
    The entire strategic framework upon which our foreign 
policy in that region has been based is rapidly transforming. 
U.S. policy must transform with it. It is, however, unclear 
today whether the administration's foreign policy is, in 
reality, adapting as it must.
    Over the past months, the administration has dithered in 
many cases, and vacillated. On several occasions, high-level 
officials have even contradicted one another, suggesting that 
not only is there no unified vision, but no clear policy 
either.
    This has left Members of Congress and citizens of the 
region alike confused as to what the administration's objective 
actually is, and with what means it seeks to achieve it.
    Also missing is a clear strategic vision for the Middle 
East as a whole. Rather than stepping back and determining 
first what its desired end state is, the administration is 
stuck in reaction mode.
    The result is that foreign policy becomes slave to each 
individual development on the ground, and consequently the 
United States appears in many cases indecisive and non-
committal. Instead of leading the way to a more prosperous 
future for the peoples of the Middle East, the administration 
looks as if it is waiting to see who ends up on top before 
picking a side.
    Instead of viewing this as an unprecedented opportunity to 
help spread democracy and freedom to parts of the world that do 
not currently know it, the administration gives the impression 
that the protests are more of an inconvenience in many cases, 
that they are getting in the way of grand plans to extend 
outreached hands in pursuit of unclenched fists.
    Nearly 6 years ago, Secretary of State Condoleezza Rice 
stood in front of an audience at the American University of 
Cairo and declared that, ``For 60 years, the United States 
pursued stability at the expense of democracy in the Middle 
East, and we achieved neither. Now we are taking a different 
course. We are supporting the democratic aspirations of all 
people.''
    Similarly, over 7 years ago, before an audience at the 
National Endowment for Democracy, President Bush stated that, 
``As changes come to the Middle Eastern region, those with 
power should ask themselves: Will they be remembered for 
resisting reform, or for leading it?''
    These words are, perhaps, more fitting today than at any 
other time in recent history. Although President Bush was 
speaking about regional leaders, it is my firm belief that U.S. 
policymakers should ask themselves the same question.
    And I will now yield to the distinguished gentleman, the 
ranking member of the committee from New York, Mr. Ackerman.
    Mr. Ackerman. Thank you, Chairman, very much. 1947, 5th of 
June. Standing in Harvard Yard, Secretary of State George 
Marshall tried to explain why additional foreign aid was 
critical to American security.
    Since the end of World War II, America had already given or 
loaned some $14 billion to Europe. To provide some sense of 
scale, total Federal outlays in 1947 were $34.5 billion.
    But the wave of Soviet-backed takeovers and ubiquitous 
subversion, along with stark warnings of pending starvation and 
economic collapse, convinced the Truman administration that 
more needed to be done to help Europe recover.
    America stood alone, at the time, as an economic colossus 
in 1945, American GDP was greater than all other Allied and 
Axis economies combined. While much of the world was ravaged 
between 1940 and 1950, the United States economy, in 
comparison, grew by 150 percent.
    With clear victory in two theaters of war, sole possession 
of nuclear arms, and a homeland untouched by the devastation of 
war, American preeminence and self-confidence were justifiably 
at all-time highs.
    But Marshall's words were characteristically understated. 
Coolly, he explained the downward spiral gripping Europe's 
economy. Secretary Marshall warned that Europe's needs were, as 
he said, ``So much greater than her present ability to pay that 
she much have substantial additional help, or face economic, 
social, and political deterioration of a very grave 
character.''
    Secretary Marshall then called for the United States to 
provide assistance ``so far as it may be practical for us to do 
so,'' and for full partnership with European recipients to make 
that assistance effective.
    He then departed from his written text. Clearly, he felt 
something was awry, or missing, or needed to be said. He 
apologized for having used Harvard's commencement for what he 
said were rather technical discussions. ``But,'' he said, ``to 
my mind it is of vast importance that our people reach some 
general understanding of what the complications really are, 
rather than react from a passion, or a prejudice, or an 
emotional moment.''
    He continued, ``As I said more formally a moment ago, we 
are remote from the scene of the troubles. It is virtually 
impossible at this distance, merely by reading, or listening, 
or even seeing photographs or motion pictures, to grasp all the 
real significance of the situation. And yet the whole world of 
the future hangs upon a proper judgement. It hangs, I think,'' 
he said, ``to a large extent on the realization of the American 
people of just what are the various dominant factors, what are 
the reactions of the people, what are the justifications for 
those reactions, what are the sufferings. What is needed, what 
can be done, what must be done.''
    These are the questions I think we ought to be asking 
during this amazing wave of change and revolution going through 
the Middle East. We are not the same nation that we were in 
1947, and the world is different now than it was then.
    But today, as then, there are still no substitutes for 
American leadership. And by leadership, I don't just mean 
rhetoric. Marshall's speech was not a plan. Marshall's plan was 
nothing without the billions of dollars needed to actually make 
a difference at the time.
    The Middle East today doesn't need the old Marshall Plan, 
and even if we had the resources to commit--which we don't--it 
almost certainly wouldn't work. Post-war Europe and today's 
Arab world are very different places, in very different times, 
with very different economies, very different governments, and 
very different needs.
    But that doesn't mean there is nothing to be done to aid 
both the people in need and to help stabilize the region that 
is vital to our economic and national security interests. The 
political transformations that began this year are not likely 
to be over soon, and the consequences of what have already 
transpired will unfold over years, not weeks or months.
    But one challenge does seem to be the same, and that is to 
convey to the American public and to the Congress, distant from 
the troubles abroad and already fed up with the costs of war 
and the burden of assisting others, why it is so critical not 
to falter at this point.
    It seems likely to me that we are witnessing a profound 
change in world politics, as occurred following World War II or 
the end of the Cold War. Lines of alignment are disappearing, 
and the lines are being redrawn. Different ideologies and 
models for government are competing in societies without deep 
institutional safeguards to preserve order and provide 
stability.
    Salafists, Muslim Brothers, Islamist radicals, all see 
opportunities in the emerging freedom and liberty which we so 
rightfully celebrate. While brutally suppressing its own 
people, Iran is racing ahead with its nuclear arms program, 
bolstering its efforts in subversion of the Arab states, 
exacerbating Sunni/Shia conflicts, and sending more and more 
advanced weapons to anti-Israel terrorist groups.
    The Middle East is poised at a moment of becoming. One of 
the--one future offers a new Arab modernity, where culture and 
space for Islamist radicalism is squeezed by the desire of 
ordinary people to pursue their own dreams of peace and 
prosperity.
    The alternative future is one of greater tension, more 
tyranny, deeper regression into ignorance and hatred and 
violence. Amid all this chaos and change, I am certain of just 
one thing. Now is not the time for America to go wobbly or 
withdraw or turn inward. Now is not the time to try to be a 
superpower on the cheap.
    Now is the time for us to live up to the example left to us 
by President Truman and Secretary Marshall of judicious 
leadership, built upon a carefully constructed bipartisan 
consensus at home, and a true partnership with our allies 
abroad.
    Today's problems are different, and the solutions must be 
different as well. But we may still hope, as Secretary Marshall 
said, that ``With foresight, and a willingness on the part of 
our people to face up to the vast responsibility which history 
has clearly placed upon our country, the difficulties that I 
have outlined can and will be overcome.''
    To that, I would just add ``Amen.''
    Mr. Chabot. Thank you very much, Mr. Ackerman. The 
committee will be in recess. We have four votes on the floor. 
We will be back very shortly, and then we will continue.
    [Whereupon, at 2:44 p.m., the subcommittee recessed, to 
reconvene at 3:22 p.m. the same day.]
    Mr. Chabot. The committee will come back to order. The 
chair and the ranking member have given our opening statements, 
and we would invite any members of the committee, if they would 
like to give a 1-minute opening statement. Mr. Higgins? Okay.
    And we will go ahead and introduce our distinguished panel 
here this afternoon. We will begin with Eliot Cohen, who is the 
Robert E. Osgood Professor of Strategic Studies at the Johns 
Hopkins School of Advanced International studies, and is 
founding director of the Philip Merrill Center for Strategic 
Studies.
    He received his B.A. degree from Harvard University in 
1977, and his Ph.D. there in 1982. He has served on the policy 
planning staff of the Office of the Secretary of Defense, as a 
member of the Defense Policy Board of the Office of the 
Secretary of Defense, and most recently as Councillor of the 
Department of State, serving as Secretary Condoleezza Rice's 
Senior Advisor on Strategic Issues.
    He has also served as an officer in the United States Army 
Reserve. And on behalf of the subcommittee, I would like to 
thank you for your service to our country.
    Next we have J. Scott Carpenter, who is the Keston Family 
Fellow at the Washington Institute for Near East Policy, and is 
the director of Project Fikra, which focuses on empowering Arab 
democrats in their struggle against extremism.
    Mr. Carpenter previously served as Deputy Assistant 
Secretary of State in the Bureau of Near Eastern Affairs, and 
also as the coordinator for the State Department's broader 
Middle East and north Africa initiatives.
    Prior to this, he served as director of the governance 
group for the Coalition Provisional Authority in Baghdad, and 
as Deputy Assistant Secretary of State in the Bureau of 
Democracy, Human Rights, and Labor, where his responsibilities 
included overseeing U.S. democracy promotion and human rights 
policy in the Middle East and southeast Asia. And we thank you 
for being here, Mr. Carpenter.
    And last but not least, Michael Makovsky currently serves 
as the foreign policy director for the Bipartisan Policy 
Center. From 2002-2006, he served as Special Assistant for 
Iraqi Energy Policy in the Office of the Secretary of Defense, 
and Director of Essential Services in the Washington offices of 
the Coalition Provisional Authority.
    Prior to his work in the Pentagon, he worked over a decade 
as a senior energy market analyst for various investment firms. 
Makovsky has a Ph.D. in diplomatic history from Harvard 
University, an M.B.A. in finance from Columbia Business School, 
and a B.A. in history from the University of Chicago. And we 
welcome you here this afternoon, Mr. Makovsky.
    And we appreciate, again, all three of our distinguished 
panelists here this afternoon. And I see that another member 
has entered here, and if Mr. Rohrabacher, the gentleman from 
California, would like to make a 1-minute opening statement 
relative to the Middle East and Egypt and the rest, we would 
love to hear it.
    Mr. Rohrabacher. One thing I know after 22 years here, and 
7 years in the White House before that, is peace doesn't happen 
on its own, and neither does freedom happen on its own. It is a 
product of a lot of hard work, and the right ideas and the 
right approach.
    And if we are to have more freedom in this world, and more 
peace in the Middle East, we have got to do things that work, 
and I am very interested in hearing different people's 
perspective on that.
    One last note. I am very supportive of what was the Reagan 
Doctrine. I was very involved in that in the White House. It 
worked. It ended the Cold War. We helped people fight their own 
fights.
    People in Afghanistan, Nicaragua, wherever, we didn't send 
our troops into those countries and risk confrontation directly 
with the Soviets. We helped those other people fighting for 
their freedom.
    And that brought an end to the Cold War with the Soviet 
Union in a peaceful way. There has to be some corollary to that 
in the Middle East and throughout the world, where we would 
help people like those in Libya who are fighting for their 
freedom, without actually sending our troops on the ground and 
thus risking being dragged into a quagmire.
    I am very interested in the opinions of our guests today, 
and I will be paying attention. Thank you.
    Mr. Chabot. Thank you very much. We will begin with Mr. 
Cohen, and you will be recognized for 5 minutes, as each of the 
witnesses will be.
    We actually have a lighting system, and you should be able 
to see the yellow light come on, which will tell you that you 
have 1 minute to wrap up. When your red light comes on, if you 
could conclude your testimony, we would appreciate it.
    And we will restrict ourselves to that 5 minutes as well.
    So Mr. Cohen, you are recognized for 5 minutes.

STATEMENT OF MR. ELIOT COHEN, PH.D., ROBERT E. OSGOOD PROFESSOR 
  OF STRATEGIC STUDIES, THE PAUL H. NITZE SCHOOL OF ADVANCED 
   INTERNATIONAL STUDIES (SAIS), THE JOHNS HOPKINS UNIVERSITY

    Mr. Cohen. Thank you, Chairman Chabot and members of the 
subcommittee. I have a longer statement, which I would like to 
have entered into the record, if that would be possible.
    Let me just summarize three points. The first, very much 
along the lines of remarks that have already been made. And 
that is, we are living in the middle of astounding events, 
which I think disprove a lot of the truisms and cliches of 
experts on the Middle East.
    But I think we have to remind ourselves of the tremendous 
uncertainty that surrounds these developments. If there are two 
phrases I would like to see banned from the public discussion 
of the Arab Spring, one would be the arc of history, and the 
other would be being on the wrong side of history.
    I don't think history has an arc, that is to say a curve 
that we can calculate. And I certainly don't think that history 
chooses sides. It is what people decide to do. And although I 
think we have to be tremendously impressed at the courage of 
Arab demonstrators, there iss nothing that guarantees that 
these revolutions are going to have a happy outcome.
    Ours did. The Velvet Revolutions did. The French Revolution 
did not. The Russian Revolution did not. The Chinese Revolution 
did not. The Iranian Revolution did not. So the first point is, 
we simply cannot take for granted the triumph of liberal forces 
in the Middle East.
    My second broad point is that in the Middle East we are 
going to face--we do face--that age-old clash between American 
ideals and American self-interest. That, of course, is a 
tension that goes back even before our independence from Great 
Britain.
    There are numerous cases, of course. One that comes to mind 
is that of Bahrain, where our democratic instincts will tilt to 
the Shia population, our geopolitical interests, to include our 
alliance with Saudi Arabia, our concern about Iran, will tilt 
in favor of the regime.
    What should we do about that? I would say, first and 
foremost, the United States should always be the friend of the 
cause of liberty. And I have used the word liberty advisedly 
and in preference to democracy.
    We should care about fundamental rights: Impartial courts, 
freedom of conscience, security of life and property, 
representation in any of a number of forms, and the opening of 
opportunity, particularly for women. We should care more for 
those things than we necessarily do for elections, per se.
    I think we also have to accept the fact that in some cases 
our interests and our values will not coincide, and there will 
be times when we have to act in ways which will appear--and may 
in fact be--inconsistent.
    And I think there is a great need for America's leaders, 
not only the White House but in Congress, to be up front 
explaining why that is so, because it will be so.
    And we need to consider not only these countries as 
individual cases, but the region as a whole. And that leads me 
to my third point, which is about Libya, even though I know 
that that is not necessarily within the remit of this 
subcommittee.
    I believe it was the right course of action to intervene on 
behalf of the Libyan rebels. I wish we had done so earlier. 
Both our ideals and our self-interest are engaged there.
    I can understand why people opposed the use of force in 
Libya, but that debate is over. We are committed to getting rid 
of Colonel Gaddafi. I have to say, though, I am dismayed by a 
number of things.
    I am particularly dismayed by the half-heartedness of our 
effort in this war. And it is a war, because we are dropping 
bombs on people. We are killing soldiers. We are destroying 
equipment.
    Having committed the United States to this conflict, we 
really do need to see it through to the end. I think if Colonel 
Gaddafi were to remain in power at the end of this, after 
President Obama has said that he has to go, we will live to 
regret it.
    And I believe that unless he and his sons are really, 
permanently put out of the way, there is a good chance that we 
will have at least another Lockerbie, if not something worse.
    And I think beyond that, we have to think about the 
demonstration effects of Libya. What is at test right there is 
whether regimes can use extreme ruthlessness toward their own 
populations. That is what is being tested. And we really don't, 
I think, have the ability simply to stay out of that.
    And that is my last point, really, which has to do with 
where we stand in the Middle East. Our country is not in the 
mood for grand projects in that part of the world, and for 
perfectly good reasons. Nor do I think we should embark on any.
    But even so, to paraphrase that highly experienced 
agitator, Leon Trotsky, we may not be interested in revolution, 
but revolution--including the Arab revolution--is definitely 
going to be interested in us.
    [The prepared statement of Dr. Cohen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Chabot. Thank you very much.
    Mr. Carpenter, you are recognized for 5 minutes.

  STATEMENT OF MR. J. SCOTT CARPENTER, KESTON FAMILY FELLOW, 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Carpenter. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear before you today. Having just returned 
from a fact-finding mission to Tunisia and Egypt, I look 
forward to sharing my observations, and request that my full 
statement be included in the record.
    Mr. Chairman, the revolutions currently sweeping the region 
create new opportunities for the United States, but also 
dangers. I recognize those dangers, but on the whole I would 
say that there is more to celebrate here than to fear. There is 
little doubt in my mind, for instance, that the Tunisians will 
be the first in the Arab world to successfully transition to a 
true representative democracy.
    Egypt, however, is the bellwether. If Egypt succeeds in its 
transition, it will transform the rest of the region. Its 
population, strategic location, and traditional role 
practically guarantee it.
    There is new confidence in Egypt, and a democratic spirit I 
found that pervades the country. And if it is institutionalized 
in the new Egyptian state, a democratic Egypt that respects 
human and political rights, including religious freedom, is an 
Egypt that will make a better partner for the U.S. than the 
declining Mubarak regime ever was. Such an Egypt may not see 
eye to eye with the United States or Israel about various 
aspects of policy, but no one I spoke with on my last trip 
advocated or believed that Egypt would abrogate the peace 
treaty with Israel or envisioned a war with Israel.
    The if in that previous paragraph, Mr. Chairman, is a big 
one. The transition there is bound to be rocky. Short-term 
challenges include stabilizing the economy, restoring law and 
order, and securing the Sinai region. Still, prominent 
businesspeople and other political actives with whom I met were 
remarkably bullish about Egypt's future, including the ability 
to compete politically with Islamists.
    To manage toward a positive outcome, I believe it is 
critical that the U.S. do everything it can to help Egypt and 
Tunisia consolidate their democratic transitions. Doing so will 
require creativity, some resources, and the intestinal 
fortitude to weather the ups and downs of the countries' 
domestic politics.
    The Muslim Brotherhood, for instance, will play a role in 
the respective elections that are quickly approaching. This 
will require the U.S. to strike a wise balance between on the 
one hand being alive to the dangers the Brotherhood and its 
allies pose to critical U.S. interests and on the other hand 
providing the Brotherhood with a political gift through 
lightning-rod statements or actions that could motivate voters 
otherwise indifferent to the Brotherhood's message to support 
the movement.
    It is important the administration send a clear message to 
the political elites and voting publics in Egypt and Tunisia 
that indicate the sorts of governments that we will support: 
Those committed to universal freedoms, including religious 
liberty and practice.
    In the case of Egypt, we must clearly also state that we 
support a government that fulfills its international 
obligations, including upholding the peace treaty with Israel. 
The administration must also act to create incentives 
encouraging Egyptians and Tunisians to choose the sort of 
leadership with whom we will build new and lasting relations.
    In the case of Egypt, such incentives might include opening 
negotiations for a free trade agreement or expanding the QIZ 
programs. For both governments, I would recommend an early 
loan, collateralized by seized assets of the ancien regime, 
which could be a powerful incentive.
    Mr. Chairman, even now the prospect of successful 
democratic transition is posing challenges to reactionary 
powers in the region, including Syria and Iran. Iran's primary 
influence derives from its soft power and revolutionary 
rhetoric. If democracy succeeds in marginalizing Islamist 
political ideology, Iran's theocratic pretensions will be 
similarly marginalized.
    As we have already seen in Egypt and Tunisia, anti-
Americanism and a fixation on the Palestinian conflict, the 
twin diets of Iranian rhetoric, have been subsumed completely 
by a newfound preoccupation with domestic affairs and practical 
concerns.
    What is true for Iran, however, is also true for America's 
ally, Saudi Arabia, another theocracy with pretensions to 
leading the Islamic world. The U.S. and the Kingdom perceive 
regional developments through different prisms.
    For the U.S., the changes are natural consequences of poor 
governance being expressed through unstoppable popular 
protests. For the Saudis, who see Iranians under every bed, 
there is an absolute paranoia about Shia ascendancy. At this 
critical moment of cascading change, the Saudis are creating a 
self-fulfilling prophecy which will be wholly negative for U.S. 
interests, in my view.
    The violence used against Bahrain Shia in recent weeks is 
contributing to the radicalization of Shia across the region. 
For this reason, it is critical that the U.S. find some way to 
convince Riyadh that the focus should be on managing change, 
rather than trying to stop it or roll it back.
    At the same time, if the U.S. is to fundamentally leverage 
the changes taking place in the region, the administration must 
find a way to reinvigorate the Green Movement in Iran. In April 
2009, the administration missed a golden opportunity to do so, 
because it was convinced that it would risk efforts to broker a 
nuclear deal with Iran. This was a strategic mistake, but it 
has a second chance.
    I strongly believe the Arab revolutions of 2011 pose an 
insurmountable challenge to Iran's regime, but accelerating the 
impact will require a comprehensive strategy. Forging such a 
strategy and pursuing it aggressively, however, will do little 
to calm Saudi Arabia, whose greatest nightmare is a democratic 
Iran that becomes a strong U.S. ally. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Carpenter follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Chabot. Thank you very much.
    Mr. Makovsky, you are recognized for 5 minutes.

   STATEMENT OF MR. MICHAEL MAKOVSKY, PH.D., FOREIGN POLICY 
               DIRECTOR, BIPARTISAN POLICY CENTER

    Mr. Makovsky. Thank you very much Mr. Chairman, Ranking 
Member Ackerman, and members of the committee for giving me the 
opportunity to speak to you this afternoon. I want to highlight 
three key points I made in my written submission, my written 
testimony: What are U.S. interests in the region, the impact of 
political turbulence on Iran, and U.S. energy security.
    Winston Churchill wrote during the Second World War, 
``Everything for the war, whether controversial or not, and 
nothing controversial that is not bona fide needed for the 
war.'' He approached all world issues with such single-
mindedness. I believe we have to do the same during the fog of 
events.
    So what are our interests, first of all, in the region? I 
would say our top interests in the region are three: A secure 
flow of oil, a secure Israel, and reducing and defeating 
Islamic radicalism and terror.
    A single threat, more than any other, would undermine all 
three of these interests: A nuclear Iran. Therefore, I believe 
that preventing a nuclear Iran should remain our paramount goal 
and guide our policies among the fog of events.
    I support, like my colleagues here at the table, that 
liberalization, if it took root in the region, would serve the 
U.S. interest and would undermine Iran. However, there have 
been some disturbing events that have gone on in the turmoil, 
and I will just highlight how they have also affected Iran.
    I think so far the turmoil has been rather beneficial for 
Iran. It has weakened some of its allies. Mubarak is gone, 
Lebanon is moving the Hezbollah camp. The one interesting 
development that could go the other way is what is happening in 
Syria. I think the anti-Iran coalition in the region has frayed 
due to a lack of confidence in U.S. leadership and support, 
which Secretary Gates and Tom Donilon have been trying to 
address in their recent trips to the region.
    Also, the international attention on Iran's nuclear 
development has been diverted. Meanly, Iran has been only--
despite Stuxnet and international sanctions, which have really 
been tough, Iran has been not only making its way, but actually 
advancing in its nuclear program.
    And I think going forward, we need to have a new phase of 
our Iran policy. I think the administration needs to enforce 
sanctions on the books. We should consider new sanctions, but 
try to avoid sanctions that would be counterproductive, which 
my initial sense is that--some talk about banning Iranian oil 
exports, and that would actually come under the latter 
category.
    I think we should pursue a triple track policy: Diplomacy, 
sanctions, and a visible and credible preparation for a 
military option. These de rigeur comments by the administration 
that all options are on the table, often followed by remarks 
about how risky it would be, are actually not doing the trick.
    The Iranis don't seem very afraid of a U.S. strike or a 
U.S.-allied strike. And until we are, we don't have a chance of 
a diplomatic solution to this problem. I think then, of course, 
whatever we threaten we have to be prepared to do. Because as I 
said, this is the primary strategic threat we have.
    I would like to switch and move on to how this affects--
what has been going on in the region, how it affects our energy 
security. I anticipate this upheaval will be extended, and I 
think that it will lead to less oil supplies and higher prices, 
undermining our energy security. And I will highlight four 
reasons why, and what we can do about it.
    First, we should expect that production disruptions are not 
only going to occur in countries experiencing turmoil, like you 
see in Libya, but then that there will be a prolonged 
disruption even after there is some peace that comes to that 
country.
    History is littered with such examples: Iran, Iraq, Russia, 
Venezuela, all experienced significant turmoil politically, and 
their oil production has never returned to their previous 
peaks, even as of today.
    Transit will be more risky. We could talk about several of 
the choke points, but I will just highlight the Bab el-Mandeb 
choke point off of Yemen, which could become even more 
dangerous if there is even more of a collapse of authority in 
Yemen.
    Third, oil demand is likely to rise and export will shrink 
among the oil exporting countries that are experiencing 
turmoil, because the regimes need to continue to subsidize fuel 
to mollify their populaces. And I should add that the oil 
exporting countries in the Middle East have actually been one 
of the growth--they have had actually the biggest growth of 
demand, actually, one of three, China and the United States are 
the other two, in the last decade.
    The fourth factor, oil exporting regimes need higher prices 
and revenue to pay for higher social spending. Witness the 
Saudi expenditure, or commitment to spent $130 billion. Thus, I 
think gulf Arabs are unlikely to undercut Iran's economy by 
supplying more oil and lowering prices.
    Iran could only increase its revenue by higher prices, 
because its oil production has declined 17 percent in the last 
3 years. In the remaining seconds, I will just say Iraq 
actually offers some hope in all this. Iraq could be--is 
actually breaking out of its ban in oil production, and could 
be an energy superpower. And this not only serves U.S. 
interests in providing more oil to the market, but I would add 
there are some challenges there. Because they have to expand 
and diversify export routes, Turkey and the Persian Gulf, I 
think they should go into Jordan. And I see my time is over. 
Thank you.
    [The prepared statement of Dr. Makovsky follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <greek-l>Appendix deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Chabot. Thank you very much. We may be able to get into 
some of the things you were going to go into in our questions 
here, and I will recognize myself first for 5 minutes.
    And I will begin with you, if I can, Mr. Cohen. Since 
taking office, the administration's policy toward Syria has 
been focused almost exclusively on engagement with Damascus. 
Two years and one ambassador later, I think it is fair to 
conclude that the engagement path has not exactly borne fruit.
    Despite what he may say, Assad has made clear through his 
actions, both past and most recently, that he couldn't be 
further from being a reformer. Along this line, I would like to 
ask you about a recent statement Secretary of State Clinton 
made in an interview with Bob Schieffer.
    Most of the focus on this statement has been about 
Secretary Clinton's suggestion that Bashar al-Assad, a ruthless 
dictator, might in fact be a reformer. But I want to ask you 
about a different portion of her statement, specifically what 
she said before that particular gaffe. In response to Bob 
Schieffer asking why, given the ruthless assault against 
peaceful protestors, Secretary Clinton viewed the situation in 
Syria as different from that in Libya and why we did not take 
action in Syria and we are in Libya, she had this to say.
    This is her quote: ``Well, if there were a coalition of the 
international community, if there were the passage of a 
Security Council resolution, if there were a call by the Arab 
League, if there was a condemnation that was universal--but 
that is not going to happen, because I don't think that it is 
clear what will occur, what will unfold.''
    So what would you have to say relative to Syria, and what 
would your comments be about those comments?
    Mr. Cohen. Let me break that in two. First, on Syria, I 
quite agree. Look, this is a regime which throughout the Iraq 
War, during part of which I was in government, was really 
fostering the worst kind of attacks on American Servicemen and 
Women serving in Iraq, and we really never called them to 
account.
    We never called them to account for their nuclear program, 
and we have continued to allow ourselves to be, I think, gulled 
by the Syrian regime. So I don't think Bashar al-Assad is 
really a reformer. I don't think it is a regime that we should 
be dealing with. I don't think we should have sent an 
ambassador in return for nothing, which is what we did.
    And I do think we have to realize that there is an 
opportunity here. Not simply a humanitarian opportunity for the 
people of Syria, but if that regime were changed by an uprising 
of the Syrian people, that would break one of Iran's major 
links to the Middle East.
    Syria is Iran's most important Arab ally, and I think 
strategically that is the way to think about it. The other 
comment I would make would be about the tone of the remark, and 
it does disturb me the extent to which the administration, 
throughout all this, has referenced the U.N. Security Council, 
the Arab League, world opinion. I mean, the issue is really 
what American policy is, and to be perfectly frank with you, to 
go back to Libya for a moment, I would have been happier if 
congressional consent had been asked----
    Mr. Chabot. Right.
    Mr. Cohen [continuing]. And not just the consent of the 
United Nations.
    Mr. Chabot. Right, and that is one of my objections, is 
really that I think like both President Bushes did, they should 
have come here, I think, and gotten Congress' approval. And I 
think they would have gotten it.
    Let me ask you, Mr. Carpenter, next. You used the term 
``half-heartedness'' when you referred to our actions in Libya 
thus far. What do you think we should have done differently? 
Obviously not being able to go back and redo what we didn't do, 
or undo what we did do, how should we move things differently? 
Because it looks like we may well be on our way to a divided 
country, at least at this point. And I don't think that is in 
anybody's best interest.
    Mr. Carpenter. As you suggest, Mr. Chairman, there is no 
use crying over spilled milk. But I would say that the United 
States had an opportunity to lead earlier, that a no-fly zone 
could have been imposed earlier and more robustly, well before 
Benghazi came under direct threat and sparked the global 
concern that led to the Security Council resolution.
    In terms of what I think needs to happen now, again I 
understand that the administration has been loath to want to 
lead from the front, but only to encourage from behind.
    But clearly the situation is deteriorating there, and I 
think for the importance of American power and because I think 
that Gaddafi returning to power in any way in Libya would be 
extremely destabilizing for both Tunisia and Egypt in the 
medium-term, it is critical that we devote additional air 
assets to the struggle, including those that could be used 
against ground forces, for instance AC-130 gunships.
    Mr. Chabot. Okay. Thank you very much. Unfortunately, my 
time has expired. If we do a second round, I will get to you, 
Mr. Makovsky.
    The ranking member, the gentleman from New York, is 
recognized for 5 minutes.
    Mr. Ackerman. I thank the chairman. I am trying to find a 
sense of direction here that everybody is encouraging us to do, 
and trying to understand the position of the administration, 
which I think has not been as articulate as I would like to see 
it.
    The chairman has very appropriately called this hearing 
Shifting Sands, and if you have ever been on shifting sands I 
guess you know it is kind of difficult to get your footing. It 
is also difficult for the critics to get their footing, as 
well, so let me just observe that I am not sure that Secretary 
Clinton--and she can certainly speak for herself, or misspeak 
for herself if that is your view--actually said that Colonel 
Gaddafi was a reformer--Assad, I am sorry.
    But what she said was Members of Congress, I believe that 
includes Senators, have told her that. I am not sure that that 
is her view, or that she was just observing what she was told.
    But nonetheless, my dad served in World War II. I was a 
little baby when he came home. But I remember two expressions 
he came home with that I can repeat here. One was, ``He who 
hesitates is lost.'' And the other was, ``Look before you 
leap.''
    Whenever I would do something, he would impose one of those 
two if I screwed up my guess. And I asked him, ``How do you 
know when to look before you leap and how do you know that you 
are going to be lost if you hesitate?''
    And he says, ``Experience. You make a lot of mistakes 
first.'' I am not sure what we are supposed to be here 
listening to advice, not just from our panel but from others as 
well. If you were to pick any three countries in the region 
that are in a state of transition, on a scale of one to 10, 
with one being just saying, ``Hey guys, we wish you a lot of 
luck'' and 10 being full-fledged support, which includes U.S. 
military support, troops, and a blank check commitment, name 
the country and give me 1 to 10 what you would do if you were 
the administration.
    Mr. Chabot. Is there one particular----
    Mr. Ackerman. Let us start with Mr. Cohen. Just the order 
you went in.
    Mr. Cohen. That is a difficult question. I think in the 
case of Libya, once having committed ourselves to the use of 
force and having committed ourselves to the overthrow of 
Colonel Gaddafi, which is really where we are----
    Mr. Ackerman. Did we commit ourselves to the use of force 
in Libya?
    Mr. Cohen. Well, we have done it. And the President has 
indicated that we are in this to back up our European allies, 
but for sure we have used it. And for sure he has said that----
    Mr. Ackerman. Sometimes that means ``I will hold your 
coat.''
    Mr. Cohen. But the first week was very far from holding the 
coat, and we are doing a lot more than holding the coat. And as 
I think we are already----
    Mr. Ackerman. How far do we go, is the question.
    Mr. Cohen. I would be willing to go, I think, where Mr. 
Carpenter would go, that is to say----
    Mr. Ackerman. What is the number?
    Mr. Cohen. I don't think there is a need for troops on the 
ground beyond trainers and advisers to the rebels. I think we 
probably need a lot more in the way of lethal air power.
    Mr. Ackerman. Is that a 3 or a 7?
    Mr. Cohen. I am not quite sure. I find it hard to think 
about it in that way. I mean, I can think concretely what I 
would be in favor of doing in Libya, which is AC-130s, A-10s, 
Special Operations Forces to train the rebels. I would be 
against putting in the 82nd, but I don't think we need that.
    Mr. Ackerman. You have a number of troops or a dollar 
amount?
    Mr. Cohen. What?
    Mr. Ackerman. You have a number of troops, or a dollar 
amount?
    Mr. Cohen. At this point, given what we have chosen to do, 
I really don't think that is what I would be thinking about. 
Because I really do think that the stakes are very high. If we 
fail, if the President having said Gaddafi has to go, Gaddafi 
stays, if he ends up having stood up against NATO and a large 
coalition----
    Mr. Ackerman. So it is like President Bush saying, ``That 
is unacceptable,'' referring to behavior from any number of----
    Mr. Cohen. I think that is unacceptable. Do I think this is 
$100 billion commitment? No, I don't.
    Mr. Ackerman. Okay.
    Mr. Cohen. But can I tell you whether it is 40,000,000 or 
150,000,000? I can't.
    Mr. Ackerman. Mr. Carpenter?
    Mr. Carpenter. I would just say very quickly I would invest 
very heavily--no need for troops, but I would invest very 
heavily--in helping Egypt succeed. Frankly, I think Yemen is a 
basket case no matter what happens, and I would not invest a 
ton of money there, although I understand the rationales for 
doing so. It is in the Saudis' backyard, and I think we can 
coordinate with them and help.
    In terms of Libya, I would say it is probably a 6, because 
it doesn't warrant ground troops but it is very, very 
important. But I think there are different categories here. I 
think, as Mr. Cohen suggested, that the United States, whether 
we think we have committed ourselves or not, we have committed 
ourselves, and people around the region and the world believe 
we have. So success is important.
    Mr. Ackerman. With the chairman's indulgence, if Dr. 
Makovsky can----
    Mr. Chabot. Yes.
    Mr. Makovsky. Thank you. I concur with what Eliot and Scott 
said about Libya. Once we have committed, then we have got to 
do our best, short of ground troops, to get Gaddafi out. The 
only other country I think we should consider doing any heavy 
military investment in is Iran.
    Mr. Ackerman. Thank you, Mr. Chairman.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from California, Mr. Rohrabacher, the chairman of the Oversight 
and Investigations Subcommittee, is recognized for 5 minutes.
    Mr. Rohrabacher. All right. Thank you very much, Mr. 
Chairman. Let me remind Dr. Cohen and the other two witnesses, 
yes, the stakes are very high, you said, but so is our level of 
deficit spending. We no longer can do what we did 10 years ago, 
and 20 years ago, and 30 years ago. The United States--we are 
not just broke, we are on the edge of an economic catastrophe.
    We have $4.5 trillion more in debt after 2 years of this 
administration than we were before. What is the interest rate 
on that? If we keep going the way it is, and especially when 
the interest rate starts going up, it will crowd out all 
spending, and there will be a collapse, and none of the things 
that you are talking about will be affordable, because the 
money will have gone into inflation. Everyone's savings will be 
gone.
    We are on the edge of a catastrophe in a number of ways, 
but we still face these major challenges that we are talking 
about today. But it has to be within the context of what we can 
afford to do now. And we no longer--certainly, we can no longer 
afford to send our troops all over the world and garrison the 
world, and try to use American troops as the shock troops that 
will play the deciding factor in every war that is going on, 
that concerns us.
    Thus we have got to have another strategy. As I stated in 
the beginning, I think we can possibly afford a strategy that 
does not put American troops on the ground. And I am going to 
add one more factor here, and that is--and I agree with you, 
maybe AC-130 gunships would be good--if we have already 
committed ourselves, if you are going to help them out--you 
know what Teddy Roosevelt said was the worst sin? Does anyone 
know there?
    Teddy Roosevelt said the worst sin is hitting someone 
softly, because you just make them mad. So if we are going to 
do it, let us do it. But that doesn't mean sending troops in.
    I have had discussions with people representing the Libyan 
Council there in Benghazi, and they have insisted to me that 
they are willing to, and will be making public statements to 
the point that they are willing to pay all the expenses of the 
United States in what we are doing to help them win their 
freedom.
    Would you say that is a major factor, or would be a major 
factor in our consideration?
    Mr. Cohen. It sounds like a great idea. I mean, we managed 
to fight the first Gulf War with other people's money. If I 
could, Congressman, could I just say, I don't think any of us 
are in favor of massive financial aid programs. And I am not in 
favor of military intervention in Syria. I do think Libya is a 
very distinct case, and for better or for worse we are 
committed.
    Mr. Rohrabacher. Right.
    Mr. Cohen. And part of the price--I don't know how we price 
out a Lockerbie.
    Mr. Rohrabacher. Well, let us note this, that the cost of 
sending troops to another country and doing warfare there is 
far more expensive than aid programs, although I generally am 
not in favor of nation-building aid programs either.
    But it is $1 million a head per troop in Afghanistan, and 
so we are spending about $100 billion a year over there, and 
guess what? The Gross National Product of that country is only 
about $12- or $14 billion. Something is wrong there, somewhere.
    So I would hope that we are able to think creatively enough 
to utilize our resources and our financial resources to the 
maximum. For example, in Afghanistan, I think we could buy off 
every leader in that country, all the way down to the village 
level, for $2- or $3 billion, not $100 billion a year.
    Mr. Chairman, that is a deal. Three billion dollars to get 
us out of a $100 billion liability. So I think that--and I 
agree with the panel, let me just say. I agree with what each 
of you had to say. We need to do what is right in Libya, and it 
will be a message to everybody else in the Gulf if we do. But 
we need to do it with letting them do their fighting, but us 
backing them us, and them paying for it. Thank you very much, 
Mr. Chairman.
    Mr. Chabot. Thank you, Mr. Rohrabacher. I think the ranking 
member and I have both agreed that if we can get out of 
Afghanistan for $3 billion and you can make it happen, we are 
with you.
    Mr. Rohrabacher. I can guarantee it right now.
    Mr. Chabot. All right. We need to talk further. The 
distinguished gentleman from the great State of Massachusetts, 
Mr. Higgins, is recognized for 5 minutes.
    Mr. Higgins. New York.
    Mr. Chabot. Oh, I am sorry. New York, I am sorry.
    Mr. Higgins. It is an even greater state.
    Mr. Chabot. An even greater state.
    Mr. Higgins. Thank you, Mr. Chairman. I was, I suppose, 
more confident about the changes that we saw occurring in the 
Middle East and north Africa a month ago than I am today.
    Mr. Carpenter, you had said that there is a feel in Egypt, 
a democratic spirit and a confidence. Yet we see that the army 
that is overseeing the democratization process just arrested a 
blogger for insulting the military.
    A month ago, I believed that there were the two most 
powerful forces in the world, that being youth and technology, 
youth and technology that was empowered to not only organize, 
but the inspiration, if you will, for what was going on in 
these revolutions, at the basis.
    In other words, they would see what was going on in the 
rest of the world, and find that under their repressive 
regimes, these countries, and in particular the youth, had been 
held down. And what they wanted to be were citizens, not 
subjects.
    So when you look for a coherent center to all this 
instability, with uncertain outcomes, you can't find it, 
because there isn't one. And while I would agree, a month ago, 
that Egypt perhaps is the place that can set the model for a 
democratic, more or less, Middle East and north Africa, I am 
less certain of that today.
    So I would be interested in each of your assessments as to 
where this is likely to go, who potentially is the emerging 
leader, and what kind of democratic government can we see in 
that part of the world that can serve not only as an 
inspiration but as a model for other countries, including 
Turkey.
    I traveled the region last month and was particularly 
impressed with what I saw in Turkey. If you go to the airport 
in Istanbul and you look at the departure board, they are going 
to places that I can't even pronounce, which is a good sign. It 
shows that it is a functioning economy that is seeking to build 
economic relationships with other people. So I would be 
interested in your assessment, each of you, relative to those 
issues.
    Mr. Carpenter. I will try to be very short. I am not saying 
that this has--that there is any inevitability in the direction 
that this is headed. What I will say, that your concerns about 
the arrest and sentencing of a blogger in Egypt by the military 
is not only our concern, but it is an Egyptian concern.
    And I can guarantee you that the people will be out on the 
streets on Friday, and this will be an additional command. Last 
week, it was that the military do more to hold President 
Mubarak and his sons accountable, and guess what? Today it was 
announced that they are proceeding with the detention of the 
President and his two sons.
    The military wants, desperately wants, to get out of the 
business of governing the country. Every petition--if you can 
imagine, every petition, from everyone in the country, whether 
it is the Muslim Brotherhood or a demonstrator in the street, 
or a professor at a university--are all being directed at the 
Supreme Military Council. They are in a position to have to 
meet all of those demands. They need to get out of that 
business. They want to move quickly to elections.
    And there is a hunger for those elections. People argue 
about whether it should happen sooner, faster. But everyone 
also believes that to have the military stay in charge is not a 
positive thing, and will lead to a military dictatorship, 
because they won't be able to sustain this level of 
interaction.
    So it is not inevitable. We cannot sit on our hands, 
because I think if we do, it could create a self-fulfilling 
prophecy. We have to get in the game, much as we did with 
Indonesia, much as we did with the transitions in Latin America 
and Eastern Europe.
    Mr. Cohen. As you know, my view is that we have entered a 
very unpredictable time. And I suspect some of these 
revolutions will turn out well, and some of them will turn out 
poorly.
    I think where our investments should be to help shape this 
is in doing things which are really not expensive at all, to 
help develop civil societies.
    So some of this is the kind of thing that the Republican 
and Democratic Institutes do to teach people how to set up 
political parties. Some of it could be the kinds of things that 
we did after the end of the Cold War with Eastern European 
militaries, for example, getting them used to the idea of being 
subordinate to civilian authority, and so on. It is really 
about helping to shape and educate a generation, and I think 
that is where we will have our greatest payoff, which is not a 
particularly expensive investment.
    Mr. Makovsky. I share your concern about how this will play 
out. Eliot cited a few examples of revolutions that didn't go 
the way we thought. As we all know, the French Revolution had a 
counter-revolution, things played out--the Russian Revolution, 
and so on.
    I expect that a lot of these upheavals in these countries 
are going to take a long time to play out. They might settle 
down for a bit, but it is going to take a while. And it is 
understandable that it should take a while, given the histories 
of a lot of these countries.
    I share the idea about doing anything we can on civil 
society. Perhaps we should also revisit what we could do in 
terms of our public diplomacy tools, and try to convey our 
values and our interests with these countries, and perhaps we 
could influence things.
    Again, I think that a lot of these protests are organic, 
they are local. And the United States was not a part of that, 
so we don't want to be too much out in front of these. I don't 
think that would be too constructive. We want to be supportive.
    To answer your question about which of the countries you 
think you have the most faith in, obviously, given that this 
will play out for a while, it is hard to know. But I would say, 
of all the countries, I think Iran is actually possible. I am 
not 100 percent convinced of the leaders of the Green group as 
actually that they are the ones that we want to be supporting 
fully. We don't know who exactly would take charge, but the 
Persians--Iran is a coherent country, and the people seem very 
hungry there, if ever we could get past this awful regime.
    Mr. Chabot. Thank you very much. The gentleman's time has 
expired. We are going to go into a second round, and I will 
recognize myself for 5 minutes.
    I will get to you this time, Mr. Makovsky, because I didn't 
get to you last time. You had touched on energy in your talk, 
which essentially in that part of the world means oil, 
obviously. And it is my understanding that Libya puts out, 
ballpark I think it is 1.2 or 1.3 million barrels a day, versus 
Saudi Arabia which I think is 8.3 million a day.
    And obviously we have seen--that is my first question, 
really. How much do you think the instability in the region, 
and Libya most particularly, how much impact has that had on 
what we are seeing in the U.S. now versus, perhaps, the 
moratorium on oil rigs after the spill in the Gulf, and the 
natural tendency of oil to go up as the summer driving season 
is approach, and those other things which are obviously 
factors? How much do you think it is related to the 
instability?
    Mr. Makovsky. Thank you. A few parts on that. I agree with 
you, what you last said. Production anywhere is supply 
everywhere, so whether we produce it in North Dakota or we 
produce it in Libya, it is oil in the market, and that is 
important.
    You were right, Libya was producing about one and a half, 
1.6 million barrels a day. And the Saudis are estimated to have 
produced around 9 million barrels a day. The lower number that 
you cited is closer to their OPEC quota.
    I think that the issue with Libya is twofold. One is that 
it is a particularly desirable crude oil and there is no spare 
capacity for that sort of crude oil in the world, so the Saudis 
aren't fully able to fill that void. It is what they call 
sweeter, and it is lighter, to use the terminology in the 
industry.
    So that is one problem. Price usually balances that. When 
you have supply issues, prices will go up. The second issue is 
I think it made folks in the market worry that other countries 
will follow. Libya, as you point out, is generally a small 
player, but it just raises concerns. It is the first of the oil 
producing countries to really experience deep turmoil, so it 
made the market worried.
    I personally feel that the market has underestimated, 
frankly, the risks in the region.
    Mr. Chabot. Really?
    Mr. Makovsky. Yes.
    Mr. Chabot. But you do think it has had a substantial 
impact? From what you are saying now, it really should have 
been or could have been even higher than it has been.
    Mr. Makovsky. It could. Again, there are two parts of it, 
as you kind of alluded to. One is the actual supply that is 
missing from the market, and then there is what people call the 
risk premium, or a political risk premium that other countries 
could follow. And so those are the two pieces.
    Mr. Chabot. My follow up question is, if Libya has had such 
an impact, and the rest of the region, with the instability, 
were Saudi Arabia to become unstable, what would the possible 
impact of that be? And how stable is Saudi Arabia right now?
    Mr. Makovsky. I----
    Mr. Chabot. The other gentlemen, I would welcome your input 
on that as well, if you would like to----
    Mr. Makovsky. If I could punt the ladder to my other 
colleagues on the stability--if Saudi Arabia would be 
destabilized significantly, it would have a huge impact on the 
oil market. If I could add something to this?
    Mr. Chabot. Yes.
    Mr. Makovsky. I want to finish up. I think Iraq here could 
actually be very helpful. They are now producing more oil than 
they have for many years, since before the war. There is a lot 
of money pouring in, billions of dollars from a lot of 
companies.
    And it is not just oil. Natural gas is also very important, 
and they could supply a lot both to Asia and to Europe, and 
reduce the European dependency on Russian supplies.
    So I think anything we could do to help Iraqi oil--and I 
think there are too many things. I would say one, when we talk 
about what forces hopefully could stay in Iraq after 2011, the 
5th Fleet should continue to protect the export terminals in 
the south. And anything that we could support having to do with 
diversifying and securing their export capacity.
    Mr. Chabot. And I would remind folks that one of the 
criticisms of the United States was that we were going into 
Iraq to take their oil. We obviously didn't take their oil.
    Mr. Makovsky. No. And I would argue, if anything, I think 
we were a little spooked by that idea so we didn't actually do 
enough. The idea was--we didn't go in for oil, and we were 
getting plenty of Iraqi oil before the war. In fact we were one 
of the biggest buyers of Iraqi oil before the war.
    That said, it is in our interests that Iraq develops its 
energy sector. It also hurts Iran. It improves the oil market. 
It improves our economy.
    Mr. Chabot. Well, it was one of the Democratic amendments 
that I agreed with and voted for years ago that we should have 
used, I think it was half of the rebuilding of Iraq should have 
been paid for by their oil, as opposed to the U.S. taxpayer. 
But we failed on that amendment.
    Because, my recollection is, the Bush administration was 
concerned that it would send the wrong message to Iraq, and 
might be consistent with those criticisms of the United States 
that we were just going in to take their oil, which was absurd 
from the start.
    But if you took a poll in the Middle East, I am guessing it 
would be pretty high that people would agree that that is why 
we went in there, and what we did. Which we clearly didn't.
    Stability in Saudi Arabia, if either one of the other 
gentlemen might like to take that very quickly, because then I 
will turn it over to Mr. Ackerman.
    Mr. Carpenter. I think that, on the face of it, all of the 
aspects for instability do exist in Saudi Arabia. The Al-Saud 
family, we are talking about 2,000-plus princes and members, a 
very large population, the average age probably being around 
20, 22, which means that the leadership is about 60 years 
older. You have a succession crisis coming up.
    But on the whole, they do have resources, and they are 
using them to deploy against this, as Mike mentioned, in a 
massive way. So I think they are going to buy themselves some 
time. The question is, what do you do with it?
    Mr. Cohen. You know, 6 months ago we would have told you 
Egypt is massively stable, so I wouldn't count on Saudi Arabia. 
That is point one. I mean, I agree with everything Mr. 
Carpenter just said. I also think because of the succession 
problem that they have, you are going to have a geriatric 
leadership as far as the eye can see, and that is not a good 
thing.
    And the third thing is, the Iranians clearly have an 
interest in messing around with them, and particularly with the 
Shia population, which is of course in some of the oil 
producing regions. So I would not rule out some sort of major 
shock. And if that were to happen, then the world really is 
going to look like a very different kind of place.
    Mr. Chabot. Thank you very much. Very good answer. The 
gentleman from New York, and not Massachusetts, is recognized 
for 5 minutes.
    Mr. Ackerman. Thank you very much. The world indeed is 
going to look like a different place no matter how some of 
these situations turn out, it would appear. I didn't mean to 
trivialize before by asking the assignment of a number, but I 
was trying to get a perspective in scale of which countries 
were worth investing more in than others, and how much we are 
willing to invest in those countries.
    I know it is very fuzzy, and the answer really is, ``It 
depends,'' but what I did get from the general remarks was 
basically that Egypt is too big to fail, that Yemen is too 
crazy to get involved with, and that Libya is okay because we 
said it was okay and therefore we have to do it. Do what, I am 
still not entirely positive.
    But take Egypt. The question is, I see a danger in the high 
expectations that exist among the Egyptian people, that we are 
not as involved as we are committed, that the Muslim 
Brotherhood and even others are planning at a rapid rate of how 
to take advantage of the situation as quickly as they can.
    The military is probably figuring out how to get out of 
this business while remaining in business business. And both 
the military and those who are more mischievous are probably 
looking at the possibility of being in business together to 
satisfy their mutual interest. At the same time, the people are 
going to become frustrated because those high expectations 
cannot be possibly met in an expedient amount of time.
    Question two is if we ignore basket cases, do we do so at 
our peril? What happens when that happens? A lot of people will 
tell you we are in Afghanistan because we can't put Pakistan at 
risk, whatever all that means. What happens in Saudi Arabia if 
nobody intervenes in Yemen and the bad guys take over in full 
force?
    And I will leave it at those two questions, and we will 
start with Dr. Makovsky.
    Mr. Makovsky. Your second question was what do we do in 
basket case countries?
    Mr. Ackerman. Yes.
    Mr. Makovsky. Well, the best we have----
    Mr. Ackerman. My colleague from California made very 
strongly, as he often does, that the cost of getting involved 
is too high.
    Mr. Makovsky. That is right.
    Mr. Ackerman. I tried to make the case earlier that the 
cost of staying out of it may not be acceptable in the world 
either, because there is a high price for that, too.
    Mr. Makovsky. That is right. And if you stay out of it, 
often the cost only rises. So I would argue that with what are 
called often fragile states, like a Yemen or a Pakistan, 
sometimes putting some money down--and I recognize the 
budgetary constraints that the country is facing, which are 
very significant--but some money to help on governance issues 
and on security forces could help, because it is seen as some 
money down could save a lot of money later if things collapse, 
and we have seen that in some of the countries that you 
mentioned, so that would be one issue.
    And I agree with you about Yemen being a country that is 
very scary. One of the dangers with Yemen is that if things 
collapse, that if President Saleh leaves, the country is an 
artificial construct. So some of the consequences could be al-
Qaeda getting even more room for maneuverability, more piracy 
off the shores, which will raise oil prices, and also 
instability in the Arabian Peninsula. I thought my time was up.
    Mr. Ackerman. Mr. Carpenter?
    Mr. Carpenter. Just about Yemen, Yemen has been a nearly 
failed state for a very long time. I think we have been trying 
to keep it on life support the best we can, but there has been 
no political will by the Saleh regime to address very basic 
issues, whether it is basic education or water allocation, or 
anything.
    I think that ultimately Michael could be right about al-
Qaeda in Yemen, but the problems in Yemen go much beyond al-
Qaeda in Yemen. And that in fact, if the country were to split, 
the south might be a better partner, in fact, for issues 
related to piracy or any other issue.
    But these are real problems, and I don't see really how the 
United States intervenes. But minimal investments in the 
security aspects, to safeguard what are our real, true 
interests in Yemen, which is going after al-Qaeda, I think, is 
critically important.
    In terms of Egypt and raising expectations, look. I think 
you are right that people have very high expectations, but I 
also think that having the opportunity to express themselves 
and be able to organize is going to go a long way to being able 
to vent some of those frustrations.
    And people are very, very poor. And because they are very, 
very poor, even a modest increase in their living standards 
will be, I think, greatly appreciated. There are businesspeople 
in Egypt, and they are not fleeing with their capital.
    They want to invest in the country. They want to invest in 
its future. They believe in its future. So I think, yes, this 
is going to be a rocky time. The Muslim Brotherhood is 
organizing. In my view, based on my conversations with people 
there, I think they are way overconfident. I think there is a 
vast silent majority of people that do not want to see 
Islamists come to power in Egypt, and I think that they have a 
fighting chance of creating a bulwark against them.
    Mr. Chabot. Mr. Cohen, did you want to respond?
    Mr. Cohen. Just real quickly. Actually, I do think I have 
to note that I am from Massachusetts, so I appreciate the 
compliments to Massachusetts.
    Mr. Chabot. I was reminded, by the way, it is not a great 
state. It is a great commonwealth.
    Mr. Cohen. Yes. In answer to the question, I think really 
quickly, pretty clearly Egypt is the most important country in 
the Arab world for all the obvious reasons, and it would seem 
to me that that is where most of our efforts should focus.
    The second point I should offer is that although it is 
important to think about each of these countries individually, 
there is also regional dynamics, and to some extent I think we 
have to think about this as almost as much of a regional issue.
    Because a country like Tunisia might not be intrinsically 
important, but it is Tunisia that set off this whole wave of 
events. Which leads to the last point, which is the weights of 
these countries may change depending on events.
    We may think Yemen is just such a basket case that there is 
not much good you can do there, leave it alone. And tomorrow 
developments may occur which are just going to force us to 
think about it differently, the way we thought about 
Afghanistan on September 10th, 2001.
    Mr. Chabot. Thank you. The gentleman's time has expired, 
and we will conclude this afternoon with questions by the 
gentleman from New York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. I think it is a good 
point that this is--to look at this from a regional context, I 
think, is very important. And when you look at countries like 
Syria and Libya and Yemen and Bahrain, countries that are 
fractured by tribal, ethnic, and religious divisions--you look 
at Saudi Arabia, and it is 90 percent Sunni, 10 percent Shiite. 
Bahrain, a Sunni minority rules over a Shiite majority.
    How significant in this regional context is the Shiite/
Sunni divide, and how will that play out moving forward?
    Mr. Carpenter. We all have many aspects of our identity, 
and if you touch on any one part of that identity in a negative 
way, all of a sudden that becomes the preeminent element of 
your identity. I think that is why in my testimony I said that 
Saudi Arabia right now is, unfortunately in my view, creating a 
self-fulfilling prophecy.
    Because the Shia in Bahrain were Bahraini first, and now 
are Shia to the core. And I think it is true, it is happening 
in Kuwait now where it wasn't the case before. So I think that 
this issue is going to become a very real one, the sectarian 
issue.
    You see it forcing Prime Minister Maliki to makes 
statements which I don't think he would have made before. It 
gives opening to Nasrallah, Mukhtar al-Sadr all of a sudden 
appears on the scene to defend the rights of the Shia in 
Bahrain.
    This is not healthy, and it is not good for American vital 
interests in the region. Because I think if the sectarian fire 
gets going, it is going to be very hard to stop, and it is 
going to be destabilizing.
    Just one other very quick point. I would say that when we 
talk about regional, we need to change the way we think. I 
think we really do need to have a north African strategy. You 
have Egypt, you have Tunisia, you have Libya, Algeria, and 
Morocco.
    If somehow that area gets its act together, that is where 
all of the population in this region is, and that would be a 
huge win for all of us. And so the Gulf is another challenge, 
and we need to begin to separate the two, in my opinion.
    Mr. Cohen. I guess just two thoughts. Again, I agree with 
everything that was just said. I think this is why, for 
example, in the case of Bahrain, although our geopolitical 
interests really require that we support that government to 
some extent, it means that we should not let go of sort of 
quietly pushing for reform that will ease that tension. And 
that is not just on humanitarian grounds. It is on long-term 
enlightened self-interest grounds.
    I also think this really shouldn't color our overall policy 
toward Iraq. I think it is unfortunate that so much of the 
administration's approach to Iraq has been, ``How do we 
liquidate with dignity this commitment that we never wanted and 
that we opposed?''
    And whether one was in favor of the Iraq War or not, the 
fact is we have an Iraq that is a Shia-dominated country that 
is aligned with the United States. That is an asset, and we 
should begin treating it as an asset rather than as a liability 
to be liquidated.
    Mr. Makovsky. I agree with that. That is why, because of 
Iraq, we can't see things exactly only on sectarian grounds 
between Shia and Sunni. Clearly, it is an issue. Clearly, it is 
an opening for the Iranians. And certainly Bahrain is a perfect 
example which the Iranians feel belongs to them, and they have 
had a lot of historical involvement.
    So clearly with some countries it is an issue. I don't 
think it is a decisive issue. It is certainly an important 
issue, and it obviously matters in Lebanon. But in Iraq I would 
also agree with what Eliot Cohen just said, that it doesn't 
break down exactly that way. There are a lot of Shia Iraqis 
that are not in favor of more Persian influence in Iraq.
    Also, there are Shia that are, of course, but just because 
they are Shia does not mean they want more Iranian influence in 
southern Iraq. And I agree with what Eliot just said, that we 
should really do whatever we can to help make Iraq a success.
    Mr. Higgins. Thank you, gentlemen. Your testimony has been 
very helpful and insightful. Thank you.
    Mr. Chabot. Thank you. And I would like to echo the 
gentleman from New York, that I think the panel this afternoon 
has been particularly helpful, and your testimony, I think, has 
really been excellent. So we appreciate it very much.
    And I would remind members that they have 5 legislative 
days to insert any statements or questions in the record. And 
if there is no further business to come before the committee, 
we are adjourned.
    [Whereupon, at 4:27 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
